<html>
<title> - TO OBSERVE AND PROTECT: HOW NOAA PROCURES DATA FOR WEATHER FORECASTING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                        TO OBSERVE AND PROTECT:
                         HOW NOAA PROCURES DATA
                        FOR WEATHER FORECASTING

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, MARCH 28, 2012

                               __________

                           Serial No. 112-73

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://science.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-606 PDF                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. ANDY HARRIS, Maryland, Chair
DANA ROHRABACHER, California         BRAD MILLER, North Carolina
ROSCOE G. BARTLETT, Maryland         LYNN C. WOOLSEY, California
FRANK D. LUCAS, Oklahoma             BEN R. LUJAN, New Mexico
JUDY BIGGERT, Illinois               PAUL D. TONKO, New York
W. TODD AKIN, Missouri               ZOE LOFGREN, California
RANDY NEUGEBAUER, Texas              JERRY McNERNEY, California
PAUL C. BROUN, Georgia                   
CHARLES J. ``CHUCK'' FLEISCHMANN,        
    Tennessee                            
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas
















                            C O N T E N T S

                             March 28, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Harris, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    11

Statement by Representative Brad Miller, Ranking Member, 
  Subcommittee on Energy and Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    13

                               Witnesses:
                                Panel I

Ms. Mary Kicza, Assistant Administrator, National Environmental 
  Satellite, Data, and Information Service, National Oceanic and 
  Atmospheric Administration (NOAA)
    Oral Statement...............................................    15
    Written Statement............................................    18

Dr. Alexander MacDonald, Deputy Assistant Administrator for 
  Research Laboratories and Cooperative Institutes, Office of 
  Oceanic and Atmospheric Research, NOAA

Mr. John Murphy, Chief, Programs and Plans Division, National 
  Weather Service, NOAA

                                Panel II

Mr. Eric Webster, Vice President and Director, Weather Systems, 
  ITT Exelis
    Oral Statement...............................................    37
    Written Statement............................................    39

Dr. David Crain, Chief Executive Officer, GeoMetWatch
    Oral Statement...............................................    47
    Written Statement............................................    49

Mr. Bruce Lev, Vice Chairman, AirDat LLC
    Oral Statement...............................................    71
    Written Statement............................................    81

Dr. Berrien Moore, Dean, University of Oklahoma College of 
  Atmospheric and Geographic Sciences, and Director, National 
  Weather Center
    Oral Statement...............................................    82
    Written Statement............................................    84

             Appendix I: Answers to Post-Hearing Questions

Ms. Mary Kicza, Assistant Administrator, National Environmental 
  Satellite, Data, and Information Service, National Oceanic and 
  Atmospheric Administration (NOAA)..............................   100

Dr. Alexander MacDonald, Deputy Assistant Administrator for 
  Research Laboratories and Cooperative Institutes, Office of 
  Oceanic and Atmospheric Research, NOAA.........................   113

Mr. John Murphy, Chief, Programs and Plans Division, National 
  Weather Service, NOAA..........................................   122

Mr. Eric Webster, Vice President and Director, Weather Systems, 
  ITT Exelis.....................................................   130

Dr. David Crain, Chief Executive Officer, GeoMetWatch............   134

Mr. Bruce Lev, Vice Chairman, AirDat LLC.........................   152

Dr. Berrien Moore, Dean, University of Oklahoma College of 
  Atmospheric and Geographic Sciences, and Director, National 
  Weather Center.................................................   156

            Appendix II: Additional Material for the Record

Submitted Report for the Record by Mr. Bruce Lev, Vice Chairman, 
  AirDat LLC.....................................................   162

 
                        TO OBSERVE AND PROTECT:
                         HOW NOAA PROCURES DATA
                        FOR WEATHER FORECASTING

                              ----------                              


                       WEDNESDAY, MARCH 28, 2012

                  House of Representatives,
                    Subcommittee on Energy and Environment,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 3:03 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy 
Harris [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Harris. The Subcommittee on Energy and Environment 
will come to order. Good afternoon. Welcome to today's hearing 
entitled To Observe and Protect: How NOAA Procures Data for 
Weather Forecasting. In front of you are packets containing the 
written testimony, biographies and Truth in Testimony 
disclosures for today's witness panel. I now recognize myself 
five minutes for an opening statement.
    First of all, I want to thank you all for your patience 
while we were on the Floor voting, and I want to welcome 
everyone to this afternoon's hearing to gain a better 
understanding of the NOAA's approach to procuring data for 
weather forecasting.
    Three weeks ago while testifying before this Subcommittee, 
NOAA Administrator Lubchenco spoke of the tough choices 
required in developing the Administration's fiscal year 2013 
budget request, which, by the way, included an increase in 
overall funding of 3.1 percent. Each year, the budget request 
for satellite programs grows as a percentage of NOAA's total 
budget request. NOAA's ``tough choices'' have resulted in 
placing nearly all of its eggs in a single basket: satellite 
systems fraught with a long history of major problems. These 
decisions are now causing trade-offs with other valuable 
networks.
    Today's hearing is designed to take a closer look at the 
NOAA process for making those tough choices when it comes to 
costly observing systems, including how requirements are 
determined, how data needs are met and how NOAA research is 
facilitating better analysis and technologies.
    We all recognize three things about NOAA and weather 
forecasting in the future: First, recent severe storms have 
reaffirmed that we need to focus limited NOAA resources on 
preventing the loss of lives and property. Second, NOAA 
satellite programs have been plagued by schedule delays, 
chronic mismanagement and significant cost overruns. Third, as 
admitted by NOAA and confirmed by GAO experts, there will be a 
gap in polar-orbiting satellite data in the not-too-distant 
future, and Dr. Lubchenco told this Committee earlier this 
month that there aren't any ``viable alternative options.'' We 
hope to explore this statement in further detail today.
    The fiscal year 2013 budget request provides a perfect 
illustration of the need to take a closer look at NOAA's 
process. Satellite programs represent almost 40 percent of the 
total $5.1 billion budget request, with the result being that 
programs in other line offices suffer. The decision to invest 
so heavily in the currently planned space-based remote sensing 
systems comes at the expense of observing systems that would 
come at a small fraction of the price.
    For example, NOAA has made decisions to eliminate or reduce 
investments in the national Profiler Network, the national 
Mesonet Network, and the tsunami buoy network. These decisions 
will affect lives and property and do not seem to be based on 
independent analysis.
    Knowing the challenges NOAA and the Weather Service face, 
it is all the more important that we conduct impartial 
technical assessments to guarantee that the money we spend on a 
combination of observing systems gets us the greatest 
forecasting bang for our buck, and that our data procurement is 
based on costs and benefits, rather than subjective thinking. 
Rather than relying on the whims of an individual 
Administration or the opinions of subject matter experts 
divorced from fiscal realities or program managers wedded to 
certain systems, NOAA needs to undertake comprehensive, 
objective and quantitative evaluations of observing systems 
that incorporates cost.
    There are options available to conduct more thorough 
analysis of these systems. For example, in a recent article, 
Administrator Lubchenco referred to the use of Observing System 
Simulation Experiments, or OSSE, as a ``powerful tool,'' and 
that is her quote, a powerful tool for evaluating different 
combinations of observing systems to meet forecasting needs. 
Unfortunately, NOAA has not used this powerful tool to guide 
decision-making related to current weather data challenges.
    The status quo can't continue. We no longer have the 
budgetary luxury to repeat past mistakes in our approach to 
procuring data for weather forecasting. NOAA needs to think 
beyond its current framework on the most cost-effective and 
efficient way to get data for weather forecasting. 
Technological advancements in the last two decades make it 
possible for more information to come from the private sector 
while still maintaining the level of quality assurance 
necessary for accurate weather forecasting. Improvements in 
computer processing and data assimilation allow for different 
combinations of data to create advanced forecasts. Such 
progress requires NOAA employ objective analysis to determine 
the best course forward.
    I want to thank the witnesses for appearing before the 
Subcommittee, and I look forward to a constructive discussion.
    [The prepared statement of Mr. Harris follows:]
        Prepared Statement of Subcommittee Chairman Andy Harris
    I want to welcome everyone to this afternoon's hearing to gain a 
better understanding of the National Oceanic and Atmospheric 
Administration's approach to procuring data for weather forecasting.
    Three weeks ago while testifying before this Subcommittee, NOAA 
Administrator Lubchenco spoke of the ``tough choices'' required in 
developing the Administration's fiscal year 2013 budget request, which, 
by the way, included an increase in funding of 3.1 percent. Each year, 
the budget request for satellite programs grows as a percentage of 
NOAA's total budget request. NOAA's ``tough choices'' have resulted in 
placing nearly all of its eggs in a single basket: satellite systems 
fraught with a long history of major problems. These decisions are 
causing trade-offs with other valuable networks. Today's hearing is 
designed to take a closer look at the NOAA process for making those 
tough choices when it comes to costly observing systems, including how 
requirements are determined, how data needs are met and how NOAA 
research is facilitating better analysis and technologies.
    We all recognize three things about NOAA and weather forecasting in 
the future: First, recent severe storms have reaffirmed that we need to 
focus limited NOAA resources on preventing the loss of lives and 
property. Second, NOAA satellite programs have been plagued by schedule 
delays, chronic mismanagement and significant cost overruns. Third, as 
admitted by NOAA and confirmed by Government Accountability Office 
experts, there will be a gap in polar-orbiting satellite data in the 
not-too-distant future, and Dr. Lubchenco told this Committee earlier 
this month that there aren't any ``viable alternative options.'' We 
hope to explore this statement in further detail today.
    The FY13 budget request provides a perfect illustration of the need 
to take a closer look at NOAA's process. Satellite programs represent 
almost 40 percent of the total $5.1 billion budget request, with the 
result being that programs in other line offices suffer. The decision 
to invest so heavily in the currently planned space-based remote 
sensing systems comes at the expense of observing systems that would 
come at a small fraction of the price. For example, NOAA has made 
decisions to eliminate or reduce investments in the national Profiler 
Network, the national Mesonet Network, and the tsunami buoy network. 
These decisions will affect lives and property and have not seemed to 
have been based on independent analysis.
    Knowing the challenges NOAA and the Weather Service face, it is all 
the more important that we conduct impartial technical assessments to 
guarantee that the money we spend on a combination of observing systems 
gets us the greatest forecasting bang for our buck, and that our data 
procurement is based on costs and benefits, rather than subjective 
thinking. Rather than relying on the whims of an individual 
Administration or the opinions of subject matter experts divorced from 
fiscal realities or program managers wedded to certain systems, NOAA 
needs to undertake comprehensive, objective, and quantitative 
evaluations of observing systems that incorporates cost.
    There are options available to conduct more thorough analysis of 
these systems. For example, in a recent article, Administrator 
Lubchenco referred to the use of Observing System Simulation 
Experiments (OSSEs) as a ``powerful tool'' for evaluation different 
combinations of observing systems to meet forecasting needs. 
Unfortunately, NOAA has not used this powerful tool to guide decision-
making related to current weather data challenges.
    The status quo cannot continue. We no longer have the budgetary 
luxury to repeat past mistakes in our approach to procuring data for 
weather forecasting. NOAA needs to think beyond its current framework 
on the most cost-effective and efficient way to get data for weather 
forecasting. Technological advancements in the last two decades make it 
possible for more information to come from the private sector while 
still maintaining the level of quality assurance necessary for weather 
forecasting. Improvements in computer processing and data assimilation 
allow for different combinations of data to create advanced forecasts. 
Such progress requires NOAA employ objective analysis to determine the 
best course forward.
    I want to thank the witnesses for appearing before the Subcommittee 
and I look forward to a constructive discussion.

    Chairman Harris. The Chair now recognizes Mr. Miller, the 
Ranking Member, for five minutes for an opening statement.
    Mr. Miller. Thank you, Chairman Harris. I also want to 
welcome the witnesses today and thank them for being here to 
shed light on what has become a protracted problem for NOAA but 
one that is now marked by a new urgency.
    For years the Nation's multi-billion dollar weather and 
climate satellite program has been the center of this 
committee's investigations and oversight agenda. I called the 
late and unlimited NPOESS program the most snake-bit program in 
the Federal Government at a hearing of the Investigations and 
Oversight Subcommittee when I chaired that subcommittee.
    But despite relentless pressure from both parties to get 
those programs under control, they have continued to 
experienced costly overruns, and they almost never launch on 
schedule. Most of those problems, really almost all of those 
problems, really existed before this Administration. They were 
waiting on the desk when the new Administration arrived, but 
now it is a task of this Administration, the Obama 
Administration, to fix those problems. In addition to being 
inexcusably wasteful, the programs expose the country to a very 
real possibility that we will see a gap in our weather and 
climate forecasting abilities given the expected life of the 
weather satellites now flying. From the deadliest tornado in 
more than half-a-century to the unprecedented heat wave just 
this month, almost every part of the country is facing severe, 
life-threatening, and record-breaking weather events.
    Good weather data is more important than ever. Yet, yes, 
satellites are expensive, but they are central to protecting 
life and property, and the cost of inferior systems could be 
far greater.
    So today we are asking several questions. Is the timeframe 
realistic? Is the attempt to cobble together a backup system in 
the event that our current satellite systems fail as expected 
based upon their projected expected life while we are still 
waiting for new systems to come on line? Is all that worth the 
cost or should we now just rethink our reliance on satellites 
altogether as some now argue, perhaps out of frustration with 
the many problems in the satellite programs.
    As stewards of the taxpayers' dollars, we have to manage 
these programs in the most fiscally responsible way while 
avoiding a reduction of the service and protection we come to 
expect and need. It also means we have to recognize when we can 
tinker and when we have to take more drastic action. Over the 
years, talented and innovative researchers and scientists in 
the public and private sector have developed a wide range of 
technologies and methods, weather radar, buoys, aerial data, 
wind profilers, atmospheric sounders that give us both depth 
and flexibility in anticipating the effects of weather. What I 
would like for us to learn today is how these and other 
technologies can complement the work of the satellites or if, 
when combined, they can give us much the same capability at 
less cost.
    Whatever the answer, we have to be strategic in our 
decision, evaluating the benefits of the individual 
technologies while considering the cost in realistic lead time 
for their development. At this point, to avoid a potential 
weather data gap, maybe all we can do is cross our fingers and 
hope that the existing polar satellite lasts beyond its 
designed life, its expected life, and we will have more time to 
get the next satellite successfully launched. But that is no 
way to plan our Nation's strategy for advanced weather 
forecasting, and we have to be prepared not to be that lucky. A 
weather data gap could occur as early as 2016, assuming the 
satellite does survive the expected time, which gives us four 
years to develop, test and have ready any capability to 
mitigate the gap. These are complicated and expensive systems, 
and four years is not a long time for such an expensive and 
complicated system.
    So I am interested to hear what NOAA's plans are and what 
the other witnesses are suggesting as realistic and cost-
effective strategies for minimizing the damage of this 
predicament. Mr. Chairman, this should be a good hearing, one 
of the most important aspects of this committee's jurisdiction. 
Thank you for holding this hearing today and for your staff 
working with my staff, and I look forward to a lively and 
informative discussion.
    [The prepared statement of Mr. Miller follows:]
     Prepared Statement of Subcommittee Ranking Member Brad Miller
    Thank you, Chairman Harris. I also want to welcome the witnesses 
and thank them for being here to shed light on what has become a 
protracted problem for NOAA, but one that is now marked by a new 
urgency.
    For years, the Nation's multi-billion dollar weather and climate 
satellite programs have been at the center of this Committee's 
investigations and oversight agenda. Despite relentless pressure from 
both sides of the aisle to get these programs under control, they 
continue to experience cost overruns and almost never launch on-
schedule. Many of these problems existed before this Administration, 
but it is now the task of this Administration to fix those problems. In 
addition to inexcusably wasteful, the problems expose the country to a 
very real chance that we will see a gap in our weather and climate 
forecasting abilities, given the expected life of the weather 
satellites now flying.
    From the deadliest tornado year in more than half a century, to the 
unprecedented heat wave this month, are facing severe, life-
threatening, and record-breaking weather events across the country. 
Good weather data is more important than ever. Yes, satellites are 
expensive, but they are essential to protecting life and property, and 
the costs of inferior systems could be far greater.
    So, today we are asking several questions. Is the time-frame 
realistic? Is the attempt to cobble together a backup system in the 
event that our current satellite-based systems fail while we wait for 
new systems to come online worth the cost? Or, is it simply time to 
rethink our reliance on satellites altogether, as some now argue.
    Being stewards of the taxpayers' dollar means that we have to 
manage these programs in the most fiscally-responsible way while 
avoiding a reduction of the service and protection we have come to 
expect. It also means that we have to recognize when we can tinker with 
what we have and when more drastic action is necessary. Over the years, 
talented and innovative researchers and scientists in the public and 
private sector have developed a wide range of technologies and 
methods--such as weather radars, buoys, aerial data, wind profilers, 
and atmospheric sounders--that give us both depth and flexibility in 
anticipating the effects of weather. What I would like for us to learn 
today is how these and other technologies can complement the work of 
the satellites, or if, when combined, they can give us the same 
capability at less cost. Whatever the answer, we have to be strategic 
in our decisions, evaluating the benefits of the individual 
technologies while considering their cost and realistic lead-time for 
their development.
    At this point, to avoid a potential weather data gap, maybe all we 
can do is cross our fingers and hope that the existing polar satellite 
lasts beyond its design life, buying us some time until the next 
satellite is successfully launched. But that's no way to plan our 
Nation's strategy for advanced weather forecasting. And we have to be 
prepared not to be that lucky. A weather data gap could occur as early 
as 2016, which gives us four years to develop, test, and have ready any 
capability to mitigate the gap. These are complicated and expensive 
systems, and four years is not a long time for such an undertaking. So 
I am interested to hear what NOAA's plans are, and what the other 
witnesses are suggesting as realistic and cost-effective strategies for 
minimizing the damage of this predicament.
    Mr. Chairman, this should be a good hearing on one of the most 
important aspects of this Committee's jurisdiction. Thank you for 
holding this hearing today and for your staff working with my staff. I 
look forward to a lively and informative discussion today and with 
that, I yield back.

    Mr. Miller. And I do yield back but wish to raise one minor 
procedural point that I do not wish to make contentious, but at 
an earlier hearing of this Subcommittee on hydraulic 
fracturing, an EPA witness arrived to testify with a slide, a 
PowerPoint, that had not been provided to committee staff. The 
majority Republicans objected to that, and Democrats supported 
that objection. We do need to have all the materials from the 
witnesses to prepare properly for these hearings. It may not 
look like we prepare, but we really do, or at least our staff 
does. And I know there are two witnesses on the second panel 
who have arrived today with PowerPoint presentations. Our staff 
has reviewed those. They are generally unobjectionable. They 
are unobjectionable, but it as a procedural matter, we really 
do need to have those in the future. And this matter today that 
is not a point of contention could be a contentious point at 
some point in the future.
    So I hope we will work together to make sure that does not 
happen again.
    Chairman Harris. And I want to thank the gentleman from 
North Carolina for bringing that to our attention, and we will 
work to see that it happens the way it should happen, which is 
that the witnesses provide everything for review prior, and we 
will of course share it amongst ourselves, whichever witnesses 
it happens to be. And thanks again to the gentleman from North 
Carolina for bringing it to my attention.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witnesses for 
the first panel. First witness is Ms. Mary Kicza, the Assistant 
Administrator of the national Environmental Satellite, Data, 
and Information Service at NOAA. Before coming to NOAA, Ms. 
Kicza was the Associate Deputy Administrator for Systems 
Integration at NASA.
    Our next witness is Dr. Alexander MacDonald, the Deputy 
Assistant Administrator for Research Laboratories and 
Cooperative Institutes at the Office of Oceanic and Atmospheric 
Research at NOAA. Dr. MacDonald served as Acting Director for 
the Earth System Research Laboratory and Director of the ESRL 
Global Systems Division during the consolidation of the Boulder 
Laboratories into the Earth System Research Laboratory in 2006.
    The final witness on the panel, Mr. John Murphy is Chief of 
the Programs and Plans Division of the National Weather Service 
at NOAA. Mr. Murphy joined National Weather Service after 
serving more than 29 years with the United States Air Force as 
a career meteorologist.
    I want to thank all of you for appearing before the 
Subcommittee today. I do again want to apologize for the delay, 
but we are not in charge of the House schedule. It is my 
understanding that Ms. Kicza will present one testimony on 
behalf of all three of the NOAA witnesses before us. However, 
all three of the witnesses will be available to answer the 
question of Members during the question-and-answer period for 
this panel.
    As our witnesses should note, spoken testimony is limited 
to five minutes, after which the Members of the Committee will 
have five minutes each to ask questions. I now recognize Ms. 
Kicza to present testimony from the three witnesses on this 
panel.

                  STATEMENT OF MS. MARY KICZA,

                    ASSISTANT ADMINISTRATOR,

               NATIONAL ENVIRONMENTAL SATELLITE,

              DATA, AND INFORMATION SERVICE, NOAA;

            ACCOMPANIED BY DR. ALEXANDER MACDONALD,

          DEPUTY ASSISTANT ADMINISTRATOR FOR RESEARCH

            LABORATORIES AND COOPERATIVE INSTITUTES,

       OFFICE OF OCEANIC AND ATMOSPHERIC RESEARCH, NOAA;

                  AND MR. JOHN MURPHY, CHIEF,

                 PROGRAMS AND PLANS DIVISIONS,

                 NATIONAL WEATHER SERVICE, NOAA

    Ms. Kicza. Thank you. Chairman Harris, Ranking Member 
Miller, and Members of the Committee, thank you for the 
opportunity to testify today. I am Mary Kicza, Assistant 
Administrator for NOAA's Satellite Information Services, and 
this afternoon my NOAA colleagues, Dr. Sandy MacDonald, Mr. 
John Murphy and I will discuss how NOAA determines its 
observation needs to support our mission, how we identify 
mechanisms to fill those needs and what tools we use to 
optimize the appropriate mix of systems that are used to 
deliver the data required.
    NOAA's mission to provide science, service and stewardship 
to the Nation is fundamentally dependent on assured access to 
environmental observations. Our observing requirements are 
derived from the needs of our research and operational 
programs. These observations are critical for developing 
forecasts and warnings that are vital to protecting life and 
property and promoting economic productivity.
    Because no single source can provide all the data needed, 
NOAA integrates data from both in-situ platforms and remotely-
sensed platforms such as aircraft and satellites. While 
acquisition of observational data is funded from all of NOAA's 
line and program offices, the NOAA Observing Systems Council 
coordinates the processes for determining the best and most 
cost-effective means of acquiring the data.
    As a Vice-Chair of the NOSC, I participate in the ongoing 
assessment of NOAA's observing system portfolio and the 
development of recommendations made in NOAA leadership 
regarding capabilities needed to meet our mission. NOSC 
accomplishes this by ensuring that all of NOAA's observational 
requirements are identified, documented and prioritized; that 
the requirements are verified, validated and regularly updated; 
and that the means to acquire the data to satisfy these 
requirements are regularly assessed. This assessment includes a 
determination of whether the validated requirement for an 
observation can be met through existing or planned NOAA 
platforms or through partnering with other federal agencies, 
academic institutions or state or local governments. We have 
made extensive use of partnerships with other space agencies, 
both nationally and internationally to meet our requirements. 
These partnerships allow for mutual full and open access to 
data and are beneficial for all parties in terms of reducing 
cost and risk.
    NOAA has processes to assure the availability and viability 
of data from commercial sources, and we routinely purchase data 
and services from the commercial sector. We will continue to 
pursue agreements with the commercial sector when it can 
provide data that addresses our requirements at an acceptable 
level of cost and risk.
    NOAA regularly evaluates new observing capabilities as a 
way of meeting our requirements or reducing cost. Let me turn 
to the tools that we use to evaluate observing systems against 
validated requirements. NOAA uses formal technical studies 
called Analyses of Alternatives, or AOAs. AOAs assess the 
technical feasibility and maturity of various concepts and 
examine the cost, schedule and risk associated with 
implementing each concept.
    NOAA also uses computer models similar to our current 
operational weather prediction system to estimate the impact of 
new observing systems or changes to existing observing systems 
to our operational forecasts.
    One modeling tool is called Observing System Experiments or 
Data Denial Experiments. This involves systematically adding or 
denying an existing observation to a historical forecast to 
determine the difference that action would have caused to the 
forecast accuracy. Data Denial Experiments confirm that without 
polar orbiting satellite data for the snowmageddon snow event 
of February 2010, the forecast would have significantly 
underestimated the amount of snow and the storm's track.
    Another more advanced modeling tool NOAA currently uses is 
called Adjoint Sensitivity Experiments. These experiments 
quantify the contribution of a group of existing observations 
to the overall reduction in forecast error. These efforts are 
more sophisticated in that they look at a greater number of 
observations to determine their impact on the forecast 
accuracy.
    NOAA has recently expanded its use of still more 
sophisticated modeling tools to examining the benefit of 
potential future systems, systems that don't currently exist. 
These tools are called Observing System Simulation Experiments 
or OSSEs. OSSEs examine future systems to determine their 
relative benefit in improving future forecasts. This tool 
involves the use of multiple models and is used to inform 
decision-makers prior to investing in a completely new 
observing system.
    Each of the modeling tools has their strengths and 
weaknesses, and we continue to both apply these models and 
refine them so as to support our investment decisions. They are 
used in conjunction with other programmatic information, like 
cost, risk and schedule to inform decisions we make in fielding 
existing observational capabilities or in planning for new 
capabilities.
    In conclusion, recognizing the current austere fiscal 
environment we face, NOAA is working within its means using a 
range of tools to support its investment decisions. Thank you 
for the opportunity to testify, and my colleagues and I will 
now answer any questions you may have.
    [The prepared statement of Ms. Kicza follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Harris. Thank you. I want to thank the witnesses 
for being available for the questioning today, reminding 
Members the committee rules limit questioning to five minutes. 
The Chair at this point will open the first round of questions 
for this panel, and I recognize myself for five minutes.
    The question I guess, whoever thinks they are best suited 
to answer, you know, the testimony as well as past testimony of 
GAO has indicated that even if the joint polar satellite system 
is fully funded, there will be a data gap from polar orbiting 
satellites for potentially several years. A few weeks ago the 
Administrator as I said testified that we don't believe there 
are any viable options to obtaining the data necessary for 
weather forecasting. Is this statement a subjective opinion or 
is it based in objective fact? Has NOAA actually undertaken a 
quantitative analytical study and they concluded there is no 
viable alternative to mitigate the expected data gap or is this 
just the, again, kind of a subjective feeling? What 
alternatives were evaluated and deemed not to be viable 
alternatives? So specifically, what was looked at? Ms. Kicza, 
maybe you can comment on that.
    Ms. Kicza. Sure. What I would like to do is talk about the 
gap first, and then I will talk about the tools we use to 
evaluate the gap itself. And it is an objective statement on 
the part of the Administrator.
    So the concern about the gap is the time between the end of 
an NPP mission, the current orbiting satellite, and the onset 
of the JPSS-1 experiment. The NPP has a contractual design life 
of five years that launched in late 2011. The end of the five-
year design life will be 2016.
    The JPSS-1 satellite is scheduled to launch not earlier 
than second quarter of fiscal year 2017. So it is a small 
physical gap in terms of when two satellites are on orbit, but 
the concern we have is that we need overlap of the 
measurements. We want to cross-calibrate between the 
measurements on NPP, on the instruments on NPP and the 
instruments on JPSS-1. Depending on the complexity of the 
instrument, it takes different amounts of time to fully 
calibrate the instruments. Some instruments can be calibrated 
within six months. Other instruments may take 12 months or 
longer to calibrate. So we want overlap of those instruments.
    In terms of the capabilities that NPP represents, it 
provides a continuity of the capability we are currently 
utilizing now to support our weather forecasts. That includes 
both our current polar satellites, the POESS series of 
satellites as well as the NASA capability that is afforded by 
the EOS platforms. So NPP provides continuity of that. JPSS 
will provide continuity beyond NPP.
    When we look at the implications of denying capability from 
an on-orbit forecast--that is the Data Denial Experiments I 
referred to earlier--that is what we have looked at in terms of 
saying there will be a gap based on the time it takes to 
calibrate and the relative contribution of those instruments to 
the weather forecast.
    Chairman Harris. Well, let me just clear something up for 
you. If one of the satellites is going off-line potentially in 
2016 and the other one not coming on until 2017, there will be 
no overlap. I mean, how do you calibrate a satellite that is 
not functioning?
    Ms. Kicza. When we talk about the contracted life, that is 
what is written in the contract specification, we will see how 
this spacecraft performs. It may last longer. The spacecraft 
itself may last longer than the contracted for performance, but 
we can't plan on that.
    Chairman Harris. So if it doesn't, then there is no overlap 
at all in order to calibrate one against the other?
    Ms. Kicza. Then we fall back on any other assets that are 
available, and we already have agreements in place with our 
European counterparts for the mid-morning orbit. We back each 
other up so that if we lose capability in the afternoon orbit, 
we can continue to pull in data from the European's mid-morning 
orbit.
    Additionally, we will have any other assets that may be 
available so the NPP satellite is one of the assets that are 
there. Older POESS satellites, portions of those satellites and 
instrument capability may continue to operate on line. We keep 
those in orbit and continue to nurse those as they get older.
    So we will take advantage of whatever assets we have at 
that timeframe.
    Chairman Harris. But it is possible that there may be 
nothing to calibrate them against directly?
    Ms. Kicza. There is a possibility that there would be 
nothing to calibrate them against in that orbit other than in-
situ measurements that we take from the ground.
    Chairman Harris. Okay. Thank you. Dr. MacDonald, where are 
some of the areas of research and technology development that 
could enhance our ability to protect against severe weather, 
and how much would they cost to undertake?
    Dr. MacDonald. Congressman, there are several new, exciting 
areas of research that we have been working on. One of them is 
that we know our models are crucial, and there is a really 
exciting advance in our ability to do modeling using these new 
kinds of computers based on graphics processor units. So we are 
working hard on that research. NOAA has been funding for 
several years the unmanned aircraft program looking at how we 
can really address the severe weather prediction and other 
capabilities using this new type of technology that we have 
learned so much about.
    We also are putting in new capability with our radars. For 
example, the radar system is being upgraded, and we are putting 
in what is called dual polarization and we have a group that 
studies that and tries to improve our severe weather prediction 
in that way.
    So we have a lot of tools. And as Mary Kicza mentioned, we 
are also looking at ways of looking at our observing systems 
using all these tools that she mentioned.
    Chairman Harris. Now, the budget and just one brief and 
then I will turn it over to the Ranking Member, the weather 
research is flat at about $69 million in the budget, but the 
climate research actually increases and is three times as much. 
Given the budgetary constraint, I mean, are there opportunities 
that we can't investigate fully because of budgetary 
constraints?
    Dr. MacDonald. I think we, at my level, work as hard as we 
can with the funds we are provided, and that is what we are 
doing.
    Chairman Harris. Okay. Thank you very much. Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman. Ms. Kicza, I 
understand NOAA's infrastructure does make it possible to 
collect various data using technologies other than satellites, 
radar, data buoys, wind profilers, all I mentioned in my 
opening statement, on the ground and also other surface 
observing systems. How important are all those technologies in 
comparison to the capabilities that we now have with satellites 
and how do the capability of satellites and those other 
technologies depend upon each other? Can they operate 
independently or do they really need to act in concert, work in 
concert?
    Ms. Kicza. They do need to act in concert. It is not one or 
the other, it is actually both. They complement one another. If 
you look at today's weather forecast modeling capabilities, 
satellites on the whole contribute about 94 percent of the 
input into our weather forecasting models. The in-situ 
contribute the additional 6 percent.
    Of the satellites, the polar orbiters, contribute about 84 
percent, the geostationary, about ten percent. But both are 
important to the overall forecast models.
    Mr. Miller. Okay. Mr. MacDonald, Mr. Murphy, either of you 
have anything to add?
    Mr. Murphy. Thank you, Mr. Miller. I would just like to add 
that the in-situ, like Ms. Kicza says, they are complementary. 
There is the modeling aspect of it, but then there is also the 
forecasting aspect on the ground to put out weather forecasting 
warnings. And the in-situ observations play a key part in the 
forecasting of our tornado warnings and such.
    Mr. Miller. Okay. I also have a question about the 2013 
budget proposal request from the Administration, and given 
extreme weather events that almost every state and almost every 
district has experienced this year, including my district, 
there was a tornado that resulted in the death of several 
children. And there have been extreme weather events all over 
the country. Particularly given that we are looking at the 
possibility of a gap in our weather forecasting, I have to ask 
about the criteria in making the decisions on what to cut, and 
it seems that the proposal does cut some of these other systems 
that do complement, that do need to work with our satellite. 
Even assuming that the satellite proves to have a longer useful 
life than we project, and even assuming that the Europeans will 
be able to continue to provide us data, it seems like those 
other systems are all the more important, but the proposal 
would cut the wind profile, the Mesonet Network. Ms. Kicza, how 
did the Administration make that decision to propose cutting 
those systems and what will that do to our forecasting ability, 
given all the other uncertainty about the satellites?
    Ms. Kicza. I am going to start, and then I am going to ask 
Mr. Murphy to augment what I have to say. When NOAA looks at 
its observing capabilities, it looks at the entire portfolio 
and the relative contribution that each element of that 
observational portfolio contributes. As I had indicated 
earlier, the satellites represent a huge contribution to our 
weather forecasting capabilities. But systematically we look at 
the overall portfolio, and through these types of experimental 
simulation tools I have mentioned previously, we understand the 
relative contribution of each of those capabilities and use 
that information, combined with our situation in terms of 
programmatic cost, risk and schedule to make the determinations 
that we make in coming forward with budget recommendations.
    I will offer Mr. Murphy any additional comments.
    Mr. Murphy. Yes. Mr. Miller, as Ms. Kicza had pointed out, 
we look very carefully at the portfolio, and we basically 
categorize our observation systems in two ways. They are not 
critical to the functions we need to perform, or they are 
supplementary. That doesn't mean that they don't add value. It 
just means that they are critical to our ability to put out our 
forecast and warnings.
    In the case of Mesonet and the profilers, we see those as 
gap-fillers between our RAOBs and our regular reporting fixed-
ground sites. The primary tool that we use to issue our 
warnings is the Doppler radar. Dr. MacDonald mentioned the dual 
polarization upgrade. What that allows us to do is see greater 
fidelity and get better understanding of storm structure, and 
that is allowing us, we believe, to increase our lead times and 
lower our false alarm rates. So that is how we are accounting 
for that.
    Mr. Miller. I know that in addition to the government 
weather forecasting efforts, there are a good many 
universities, researchers, others in the private sector at 
businesses that do rely upon the data that you all collect and 
generate. Were they consulted in the decision to cut the 
budgets for those weather forecasting tools?
    Mr. Murphy. Mr. Miller, I don't believe they were 
consulted. Our mandate is to collect the data to provide our 
services for life and property and protect the infrastructure 
of the nation. We do share the information freely with our 
commercial partners in academia and so forth, but we don't 
collect the data for them necessarily.
    Mr. Miller. Mr. Murphy, was your office consulted in the 
preparation of that budget request?
    Mr. Murphy. I participated in the exercise that Ms. Kicza 
pointed out that the NOSC conducted where we looked at all the 
observation systems, and we prioritized all our observation 
systems. And that was again validated by the NOSC.
    Mr. Miller. Okay. My time is expired.
    Chairman Harris. The Chairman of the Committee, Mr. Hall, 
is recognized for five minutes.
    Chairman Hall. Thank you, Mr. Chairman. Last week, 
Ambassador Lubchenco testified to the Appropriations Committee 
she convened a group to evaluate sources of environmental data 
and examine how NOAA can best utilize observing assets at the 
cheapest price. Ms. Kicza, when will this analysis be complete?
    Ms. Kicza. I think that Dr. Lubchenco was referring to the 
fact that under the NOAA Science Advisory Board we convened a 
satellite task force or working group to examine with us lower 
cost approaches to both fielding the space segments and the 
ground segments.
    Chairman Hall. I don't really know what she was thinking, 
but I am told that NOAA failed to conduct such an analysis 
before submitting a budget request, and that should have made a 
significant decision regarding these systems.
    Ms. Kicza. I am sorry. I am referring to the task force 
that she was referring to, and that will be reporting to the 
NOAA Science Advisory Board in July.
    In terms of making the budget recommendations for the 
fiscal year 2013 budget, she consulted with all of her line 
organizations as well as took the recommendations of the NOAA 
Observing System Council into account in formulating that 
budget.
    Chairman Hall. She did conduct the analysis, though, before 
submitting a budget request, right?
    Ms. Kicza. Absolutely, yes.
    Chairman Hall. Do you know why? Do you have any idea why 
she did, why she shouldn't have?
    Ms. Kicza. For each budget cycle and development, there is 
a structured process of consultation.
    Chairman Hall. Will this analysis incorporate objective 
quantitative evaluations and comparisons of observing systems 
on the basis of c-o-s-t, cost?
    Ms. Kicza. Yes, the ongoing analysis that NOAA employs to 
determine its observational requirements and its funding 
recommendations, its investment recommendations, employs all of 
the tools that I previously mentioned.
    Chairman Hall. Let us talk about commercial options for 
providing weather data. At least nine other U.S. built 
commercial satellites are launched every year. I think that is 
a fairly close estimate. The reliability of these satellites is 
pretty well-established. If the government has weather 
missions, it could be included on these satellites to the 
benefit of all parties. It seems to me that would be a cost-
effective option. Is that unreasonable?
    Ms. Kicza. No, sir, it is not.
    Chairman Hall. In the past NOAA has considered this and 
other commercial options. That might not work for all of NOAA's 
missions, but the potential benefits and cost savings seems too 
great to pass up.
    Ms. Kicza. Yes, sir, and when we look at alternatives to 
meeting our operational observational requirements, we do 
consider all sources. We do in fact purchase commercial data 
now to augment our forecasting activities. Each of our analysis 
of alternatives generally does include commercial options as 
well. When we make a decision, it is based on both the 
technical maturity and feasibility of the option as well as the 
cost and the risk.
    Chairman Hall. Can you tell me why NOAA is not pursuing 
commercial payload options to get necessary weather data?
    Ms. Kicza. As I had said, we do currently employ commercial 
services and options for purchase of data, and we explore 
options in nearly every exercise that we go through before 
making a determination.
    Chairman Hall. Well, my time is about up. Let me ask you, 
will you provide with the committee a summary in writing of 
NOAA's analysis and efforts to consider these commercially held 
options?
    Ms. Kicza. Yes, sir. I will be happy to do so.
    Chairman Hall. Thank you. I yield back, Mr. Chairman.
    Chairman Harris. Thank you very much. The Chair recognizes 
the gentleman from Maryland, Mr. Bartlett.
    Mr. Bartlett. Thank you. Our military obviously has an 
acute need for accurate weather forecasting. It is my 
understanding that because of budget constraints that we are 
cancelling or proposing to abort a troubled weather satellite 
program in the Department of Defense.
    Can you tell us how what NOAA does relates to what DOD does 
in the collecting of data for weather forecasting, how you 
share this information to minimize cost? And are there assets 
that NOAA has that could fill the gap that will be there 
because the Pentagon is aborting this troubled weather 
satellite program?
    Ms. Kicza. Yes, sir. Let me talk for a minute about my 
understanding of the situation. In the fiscal year 2012 budget 
appropriations, DOD was instructed to terminate the contracts 
associated with the DWSS, Defense Weather Satellite System. At 
the same time they were given funds to explore the next system 
in the wake of that. That is being conducted. They are 
currently in the process of reevaluating the requirements and 
conducting an analysis of alternatives. We are working in 
conjunction with them.
    For the weather satellite system, there are three orbits 
that are of interest, and there have been traditional roles in 
who handles each orbit now. The military handles the early 
morning orbit. We rely on our partners, EUMETSAT, for the mid-
morning orbit and NOAA in partnership with NASA covers the 
afternoon orbit. All of the information from these orbits is 
available to all of the partners and as used in their weather 
prediction systems. The predominant orbit for our weather 
prediction is our orbit. When I say our, the United States is 
the afternoon orbit, and that is made available to the DOD as 
they do their weather predictions.
    I will ask Mr. Murphy to augment.
    Mr. Murphy. I would just add that the DOD also has two 
spacecraft in the barn, so to speak. Their DMSP program has F-
19 and F-20, so they will fly that out into the 20s which 
allows them the time to do the analysis of alternatives. So 
they will be flying that morning orbit for a bit longer. So 
this is not a crisis.
    We do share data back and forth. We collaborate in many 
forms, both in modeling and in sharing data.
    Mr. Bartlett. Does DOD not have satellites in polar orbit?
    Mr. Murphy. The DWSS, that was a polar orbiter. They do not 
have geostationary.
    Mr. Bartlett. I thought it was the polar orbiting 
satellites that were compromising your forecasting?
    Ms. Kicza. The DOD flies in the early morning orbit. Their 
current satellite series is called the Defense Meteorological 
Satellite Program, the DMSP series of satellites. Those are 
currently operational, and in fact, NOAA on a reimbursable 
basis operates those satellites for DOD from our NOAA satellite 
operations facility. What Mr. Murphy had indicated is that they 
still have two on the ground, so they have got time before they 
introduce their next generation and they are in an analysis of 
alternatives mode right now for that is next generation 
capability.
    Mr. Bartlett. So you will not have lost all of your polar 
orbiting satellites with this gap?
    Ms. Kicza. No, sir, we will not. We will still have the DOD 
early morning orbit, EUMETSAT, the European satellite is 
covering the mid-morning orbit. Our concern is about the gap 
for a period of time, the potential gap, for a period of time 
between the NPP satellite, which we launched last October and 
which is operating successfully on orbit now, and the first of 
the JPSS satellites which is scheduled to launch in early 2017.
    Mr. Bartlett. So we still have considerable data from polar 
orbits but not all we would like? Is that where we are?
    Ms. Kicza. We currently have a robust constellation in 
orbit. We are concerned about the longevity of that 
constellation in the 2016, 2017 timeframe.
    Mr. Bartlett. Thank you, Mr. Chairman. I yield back.
    Chairman Harris. Thank you, and I have one other brief 
question, so I am going to yield myself 2 minutes, then I will 
yield the Ranking Member.
    Mr. Murphy, I have a question for you. With regards to 
severe weather prioritization, the ones that a lot of average 
Americans are worried about, the types of weather events that 
cause loss of life, are polar orbiting satellites versus earth-
based measuring devices the best approach to improve 
forecasting for those events? Because again, in the context, 
you know, the budget kind of emphasized everything on these 
polar orbiting satellites, but are they really the best way 
versus earth-based?
    Mr. Murphy. Mr. Chairman, as Ms. Kicza pointed out, the 
JPSS or the polar orbiters provide the bulk of the forecast 
model input. So where that is important is in the longer range, 
2- to 5-day period. So they give us the ability to forecast 
that there is going to be a severe weather outbreak in Missouri 
in several days. That allows emergency managers and local 
officials to prepare.
    In terms of the warnings, that is when you really have to 
depend on the in-situ or our primary tool which I mentioned was 
the dual pole or the Doppler radar to issue our warnings.
    Chairman Harris. And that is not obviously not polar 
satellite based. Those are Earth-based.
    Mr. Murphy. That is ground.
    Chairman Harris. So in essence, if we want to maintain the 
zero to two ay warning, then what we really need, we have to 
make sure that our insight to techniques are state of the art?
    Mr. Murphy. Yes, sir.
    Chairman Harris. Okay, thank you. And I will yield two 
minutes to the Ranking Member.
    Mr. Miller. Thank you. A further question about the ground 
observation platforms as you referred to them in your 
testimony, the in-situ. The in-situ observation platforms are 
scarce in polar and ocean environments, I assume, because they 
require being in a fixed place, and the oceans and the ice in 
the polar regions will not sit still for us. So is it possible 
or cost-effective to actually have more in-situ observation 
platforms in polar regions and oceans or are those problems 
inseparable? I can't hear you.
    Ms. Kicza. I said I will start and I will let Mr. Murphy 
augment. The beauty of the satellite observations are that they 
are global, so I guess literally you could do it but physically 
it is nearly impossible to have the coverage with in-situ 
buoys, and they, in and of themselves, require a lot of 
maintenance and upkeep. So that presents a problem in and of 
itself. But they are important in terms of their in-situ 
capabilities. So as I said, they supplement, they augment, they 
are complementary. Mr. Murphy, would you like to----
    Mr. Miller. But they are not a replacement?
    Ms. Kicza. They do not replace.
    Mr. Murphy. Yes, and we pretty much depend on whoever owns 
the territory to pretty much take care of the in-situ 
observation. In the case of oceans, NOAA is looking at unmanned 
water gliders, as they are called, to take ocean and 
potentially some atmospheric observations in lieu of the buoys 
that are a maintenance challenge. So I think we are doing what 
we can and what is practical in very remote and hard-to-get-to 
places.
    Ms. Kicza. And I will offer one additional comment. There 
are a number of buoys, and it is an international activity. The 
Argo has on the order of 3,000 I believe. So it is not a small 
number of buoys that are internationally shared, and the 
satellites again provide the bent pipe communications path for 
retrieving that data and then sending it down to where it needs 
to go.
    Mr. Miller. My time has expired.
    Chairman Hall. [Presiding] The gentleman's time has 
expired. Anybody else want to be heard? I want to thank the 
panel for the very valuable testimony and the Members for their 
questions. The Members of the Committee may have additional 
questions for you. I would ask you to respond to those in 
writing in a reasonable time. We would like to have them in 
about two weeks if we could.
    Let me note that the committee has not received NOAA's 
written responses to follow-up questions asked of NOAA's Deputy 
Administrator, Kathy Sullivan, after last September's hearing 
on polar satellites. These questions were sent more than five 
months ago. The delay is unacceptable, and we expect each of 
the three witnesses here today to deliver a timely response to 
these questions. Are you able to do that?
    Ms. Kicza. Yes, sir.
    Chairman Hall. I am going to recognize you for five 
minutes. I am ready to go. They say no. Witnesses are excused. 
May we have the second panel? The witnesses are excused, and we 
thank you very much for your time. We will move to our second 
panel.
    Are you gentlemen ready to proceed? The first witness on 
our second panel is Mr. Eric Webster, Vice President and 
Director of Weather Systems, ITT Exelis. Mr. Webster directly 
oversees Exelis weather and climate satellite instrument 
business unit which includes instruments for NOVA, NASA, 
geostationary and polar orbiting programs, NASA Earth Science 
and international customers.
    Our next witness is Dr. David Crain, Chief Executive 
Officer of GeoMetWatch. Prior to his work with GeoMetWatch, Dr. 
Crain was a Senior Program Manager at Space Dynamics Laboratory 
where he oversaw the sensor development activity.
    Our third witness, Mr. Bruce Lev, Vice Chairman of AirDat 
LLC. Prior to this, he was Vice Chairman and Director of USCO 
Logistics, which the business was sold to Global Freight, 
formerly Kuehne & Nagle in 2001.
    Our final witness, our last witness, is Dr. Berrien Moore, 
Dean of the University of Oklahoma College of Atmospheric and 
Geographic Sciences and the Director, National Weather Center. 
Prior to joining the University of Oklahoma, Dr. Moore served 
as Executive Director of Climate Central, a non-profit 
organization based in Princeton, New Jersey, and Palo Alto, 
California.
    As our witnesses should know, spoken testimony is limited 
to five minutes, after which the Members of the Committee have 
five minutes each to ask questions. I now recognize our first 
witness, Mr. Webster, to present his testimony.

         STATEMENT OF MR. ERIC WEBSTER, VICE PRESIDENT,

             DIRECTOR, WEATHER SYSTEMS, ITT EXELIS

    Mr. Webster. Good afternoon, Chairman Hall, Ranking Member 
Miller and staff, my name is Eric Webster, and I manage the 
weather system business at ITT Exelis. I appreciate your 
leadership and efforts to examine how NOAA procures data for 
weather forecasting.
    This is sort of a homecoming for me, Mr. Chairman, as I was 
privileged to be a staffer on this committee for five years 
under Chairman Boehlert and help lead the examinations into 
NOAA's weather satellite programs. I then served in the George 
W. Bush administration as NOAA's Head of Congressional Affairs 
and the Senior Policy Advisor on weather satellites.
    During that time, the committee conducted 12 NOAA satellite 
oversight hearings, and I still have the scars to prove it.
    My position at ITT Exelis has brought me full circle as now 
I actually oversee the building of next generation instruments 
for both GOES-R and the JPSS programs.
    There are two major types of instruments flying in space in 
two different orbits. To generalize, it is the imagers on 
geostationary satellites flying 22,300 miles above the earth, 
staring at the United States and taking pictures of clouds, 
water vapor and gathering other information on the surface 
which are critical to near-term severe weather forecasting.
    The pictures that you see on TV or the internet of 
hurricanes usually come from the imagers on geostationary 
satellites. The sounding instruments on polar satellites fly 
about 520 miles above the earth from pole to pole, taking 
three-dimensional pictures of the atmospheric column from space 
to near surface. Understanding the atmospheric column is 
important because it where weather is created, it gets mixed, 
it moves and it evolves. As was stated earlier, these 
measurements are crucial to global weather models and for our 
two to five day forecasts. So our ability to know several days 
in advance of a potential tornado or a large snow event is 
mostly because of polar sounders.
    Our engineers and workers in Ft. Wayne, Indiana, have an 
impressive record of building every imager and every sounder 
for NOAA's legacy polar satellite programs since the 1970s, 
including the next generation polar sounding instrument flying 
today on NPP and for the JPSS program.
    Our folks have also built every imager and every sounder 
for NOAA's geostationary program since the 1990s, including the 
advanced imager for GOES-R. That is a total of more than 50 
instruments without one major systems failure. So if you will, 
we are the Cal Ripkens of the space-based sensors, when he was 
still at his prime.
    As such, we also have some experience with the contracting 
process. Requirements for observation systems should be driven 
by scientific tools and experiments to maximize capabilities 
and overall effectiveness. These tools, with proper oversight 
and funding, can help prioritize unmet needs. However, they 
will not fix many of the problems in the actual design and 
procurement of observing systems. In the case of GOES-R, 
systems requirements were determined over a course of a three-
year formulation phase involving industry teams and review team 
of NASA and NOAA representatives. All the parties went through 
an iterative process whereby industry did cost and performance 
trades and presented the results back to NASA and NOAA.
    For the GOES-R imager, the process works as requirements 
remain stable, and we are in production on the first flight 
unit expected to be delivered next year. But it took $100 
million just in formulation studies and ten years to get here.
    For the GOES-R sounder, the situation was different. 
Requirements were never really solidified, and too many 
competing priorities were being asked of one instrument. The 
cost and development of the instrument and the cost and to 
assimilate the data into user products kept growing. Thus, the 
decision was made to cancel the geo-sounder instrument, and at 
the time I believe it was the right decision.
    NOAA and NASA must find ways to reduce the overall systems 
cost as the current GOES-R and JPSS programs are likely 
unsustainable. GOES-R is $8 billion for two satellites, 
sensors, ground systems and operations. The imager, which is a 
significant increase in technological capability, is less than 
ten percent of the total program cost. The JPSS program is $13 
billion for two main satellites, sensors, ground systems and 
operations. While amortizing out to the mid-2020s can lessen 
the sting of the total price tag, these costs are having a 
tremendous effect on NOAA's missions today and probably 
assuring no new observing systems, especially from space, can 
be acquired.
    In summary, space-based sensors are critical to weather 
forecasting, both for global weather models and severe 
warnings. NOAA should increase its use of scientific tools to 
determine requirements, but more than ever, hard choices have 
to be made. NOAA must examine different procurement models for 
space-based sensors such as fixed price or modifying existing 
instruments to meet requirements at lower costs and lower 
risks. Given the difficulties in turning these requirements 
into actual observing systems, NOAA will also have to rely more 
on commercial capabilities into the future to improve weather 
forecasts, whether it is advanced geo-sounders from space or 
Mesonets from the ground.
    Thank you, Mr. Chairman, for the opportunity to testify.
    [The prepared statement of Mr. Webster follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Hall. Mr. Webster, thank you. And did anybody ever 
tell you that you kind of took on some of Mr. Boehlert's 
expressions?
    Mr. Webster. No, sir, but I appreciate the compliment. 
Thank you.
    Chairman Hall. You know, he was a Republican Chairman and I 
was the Ranking Democrat then.
    Mr. Webster. Yes, sir.
    Chairman Hall. The book on us was that I kept him from 
saving all the whales and hugging trees, and he kept me from 
dribbling on cemeteries.
    Mr. Webster. Yes, sir. That is true.
    Chairman Hall. He was a good guy, hard working. Dr. Crain, 
I will recognize you now for five minutes.

                  STATEMENT OF DR. DAVID CRAIN

                  OF ERIC WEBSTER DAVID CRAIN,

              CHIEF EXECUTIVE OFFICER, GEOMETWATCH

    Dr. Crain. Thank you, Mr. Chairman, and Members of the 
Committee and the senior member for inviting me to testify 
today. I am honored to discuss the role of geostationary 
advanced sounding and how commercial approaches can help NOAA 
meet the country's observational needs.
    Today's budget and the programmatic challenges faced by 
NOAA's satellite programs present a perfect opportunity to 
implement commercial alternatives as a means to provide 
essential data needed to improve severe weather forecasting. A 
commercial approach, building on critical government technology 
investments that have already been made, combined with private 
industry and experienced universities, provides an affordable 
means for NOAA to protect lives at a price the Nation can 
afford. Commercial capabilities can complement existing and 
future NOAA systems to provide the best value solution.
    One way in which these private-sector capabilities can be 
quantified and assessed is through the use of observing system 
simulation experiments, as you have heard in previous 
testimony. We encourage NOAA to carry out OSSE experiments to 
validate the system that I will discuss today.
    [Slide]
    Dr. Crain. If you look at slide 1 just for background, our 
current operational weather systems rely on technology 
developed over 30 years ago. The current POES, DMSP and GOES 
satellites were developed in the '80s and '90s. Part of the 
rationale for both the JPSS, NPOESS and GOES-R programs was to 
implement new technology that would dramatically improve the 
capability to forecast and predict severe weather. Not just 
continue with the old, implement new important technology.
    One of the key technology improvements on both systems was 
hyperspectral sounding. The role of sounders on both LEO and 
GEO platforms is to produce the vertical profiles of 
atmospheric water vapor, temperature and pressure. 
Hyperspectral sounders dramatically increase the vertical 
resolution accuracy of these profiles over previous sounders. 
These profiles are the essential data products needed for every 
forecast. In fact, Dr. Kathy Sullivan in previous testimony 
before this committee stated that sounding data are the 
essential lifeblood of weather forecasting.
    For this and other reasons, the advanced hyperspectral 
sounder was identified as a primary mission in the process 
described by Eric when the GOES-R program was authorized. And 
when it was authorized, it was originally slated to have two 
primary instruments, an advanced imager and an advanced 
sounder. The roles of the two instruments are complementary but 
different. The imager tells you what the weather is going to be 
now, the sounder tells you what the weather is going to be 6 
hours from now.
    Severe weather events that have occurred over the last 
several years really underscore the benefits of the advanced 
geostationary sounder, and they include extending warning times 
from minutes to hours for tornados and thunderstorms avoiding 
many of the 500 deaths we had in the 2011 season; improve 
hurricane track and the intensity forecast; avoiding 
unnecessary evacuations like we had with Irene and Rita; 
improve the routing of aircraft, significantly reducing weather 
delays for passengers, allowing the airlines to manage their 
fuel and routing more efficiently. All of these are goals of 
the next-gen FAA system.
    All of these benefits can be reliably delivered by an 
advanced sounder and geostationary orbit. Unfortunately, due to 
the reasons that Eric described and for budgetary reasons and 
other satellites, the advanced sounder was cancelled on GOES-R, 
and NOAA did assess some alternatives to restore the capability 
which included flying a full capability sounder, flying a 
reduced legacy-like sounder, flying no sounder at all and 
letting the European weather agency develop an advanced sounder 
in purchasing either the data or the sounder from the 
Europeans.
    Compared to these options, we feel a commercial approach 
can provide the needed data years earlier and with minimal cost 
and risk. In 2010, GeoMetWatch applied for and received a 
commercial remote sensing license from the Department of 
Commerce to operate six hyperspectral imaging sounders. The 
GeoMetWatch sounder will equal or exceed NOAA's requirements 
and when flown over the United States will restore the full 
benefits of the GOES-R sounding mission. This sounder will 
provide continuous coverage for severe weather and vastly 
improve our ability to predict tornados, hurricane landfall and 
intensification. And as mentioned before by others, these 
benefits can now be evaluated through a use of OSSEs which NOAA 
can do.
    Mr. Chairman, we at GeoMetWatch are excited about the 
future of weather technology and the role of the private sector 
to dramatically improve the ability of NOAA and the weather 
service to predict severe weather in the United States. We 
encourage NOAA to promptly undertake OSSE experiments to 
validate the advantages of the geostationary system we have 
described, and we would also encourage the committee to 
consider legislation to clarify the authorities of NOAA and 
clarify their ability to acquire meteorological data and 
confirm the private sector's critical role in improving severe 
weather forecasting while saving lives and strengthening our 
economy. Thank you, and I welcome your questions.
    [The prepared statement of Dr. Crain follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Hall. Thank you, sir. I now recognize our third 
witness, Mr. Bruce Lev, to present his testimony.

                  STATEMENT OF MR. BRUCE LEV,

                   VICE CHAIRMAN, AIRDAT LLC

    Mr. Lev. Thank you, Mr. Chairman, Ranking Member Miller and 
Mr. Barlett, thank you all for inviting AirDat to testify 
today. We are deeply grateful and honored to be part of this 
panel. We are going to bring the conversation from 22,000 miles 
up a little bit closer to the ground right now. We are pleased 
to have a chance to talk about the need to improve weather 
forecasting in this country.
    As everyone knows, accurate and timely weather information 
can save lives, reduce injuries, save the taxpayers billions of 
dollars in costs that are sometimes associated with the 
misallocation of resources attributable to inaccurate or 
untimely weather forecasts.
    In our view, the single most critical component of the 
forecasting process is the ability to collect a vast quantity 
of very accurate--and the phrase very accurate is significant--
lower-atmospheric observations with high space-time resolution. 
Despite the numerous data collection systems deployed by NOAA, 
it may not surprise anyone in this room, that our country is 
still extremely under-sampled.
    NOAA's forecast models are sophisticated, but the success 
of even the most advanced forecasting system depends entirely 
on the quality and quantity of the observations used as input. 
Without accurate data from critical regions, even the most 
cutting-edge computer models and the most talented forecasters 
can be significantly limited in their ability to provide a 
reliable forecast, particularly when the weather is volatile.
    AirDat addresses this observational space-time deficiency 
by deploying an atmospheric observing system called TAMDAR. The 
TAMDAR system delivers unique real-time--emphasize real-time--
high-resolution meteorological data for improved analysis and 
weather forecasting. The system is comprised of a multi-
function sensor, which has been installed on several hundred 
currently flying commercial aircraft, real-time global 
satellite communications, which provides aircraft tracking, and 
computer processing, which rapidly extracts knowledge from 
extremely large data sets. Important to note, TAMDAR was 
developed in collaboration with NOAA, NASA and the FAA, and 
could today augment the National Weather Service's important 
balloon program.
    The limited number of balloon sites in the United States--
we only have 69 launch sites and they only launch twice a day--
produces an average geographical data void of approximately 
46,000 square miles and a temporal void of 12 hours, launching 
only twice a day. This space-time observational data gap can 
result in inaccurate and untimely forecasts.
    In a four-year FAA funded NOAA data denial study, a term 
you have heard earlier today, TAMDAR has been fully vetted by 
NOAA and exceeds all of NOAA's rigorous quality assurance 
standards. TAMDAR data are as accurate as balloon data, and the 
study has demonstrated those data significantly improve weather 
forecasting.
    [Slide]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The displayed slide, which is before you and before the 
audience, indicates the significant improvements concluded in 
the four-year NOAA-conducted data denial study. Additionally, 
the volume of TAMDAR data is approximately 40 times greater 
than the balloon data at less than 1/10th of the cost per 
sounding.
    Mr. Chairman, our TAMDAR system has been fully operational 
since 2005 and stands immediately ready to assist NOAA in 
improving its weather forecasting. Thank you very much for 
giving us an opportunity to chat with you today, and obviously 
we would be delighted to answer any questions.
    [Statement of Mr. Lev follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Harris. [Presiding] Thank you very much. I now 
recognize our final witness, Dr. Moore, for five minutes to 
present your testimony.

             STATEMENT OF DR. BERRIEN MOORE, DEAN,

               UNIVERSITY OF OKLAHOMA COLLEGE OF

              ATMOSPHERIC AND GEOGRAPHIC SCIENCES,

             AND DIRECTOR, NATIONAL WEATHER CENTER

    Dr. Moore. Thank you, Mr. Chairman, and Members of the 
Subcommittee for this opportunity to testify on the importance 
of continuing innovation to improve weather forecasting and 
warning.
     I am Dr. Berrien Moore, Vice President of Weather and 
Climate Programs at the University of Oklahoma, as well as the 
Director of the National Weather Center and Dean of the 
University's College of Atmospheric and Geographic Sciences. 
These positions are new for me. I have been at Oklahoma only 
since June of 2010, and therefore, I am a later rather than a 
Sooner.
    I appear, today, largely because of my responsibilities as 
the Director of the National Weather Center. However, this 
said, the views expressed in today's testimony are my own.
    I am very appreciative of this opportunity to discuss the 
continuing need to use more sophisticated observational systems 
to help improve weather forecasting by integrating state and 
local surface data, known as mesoscale observations, or 
Mesonets, to help protect life and property before severe 
weather events, providing precious additional warning time that 
can often mean the difference between life and death.
    Weather is something that Oklahoma knows well. As a 
consequence, it is not surprising that in 1990, the University 
of Oklahoma and Oklahoma State University joined forces with 
the governor of the State of Oklahoma, with an investment of 
approximately $3 million and deployed what today is a 120-
station statewide network, which includes detailed weather 
observations in every one of Oklahoma's 77 counties. At each 
site, the environment is measured by a set of instruments 
located on a 10-meter tower, delivering observations every five 
minutes, 24 hours a day year-round. We provide a state-of-the-
art observational weather system paid for and largely 
maintained with non-federal funds, with a surface weather 
observations that are reported more frequently and with more 
localized predictive value than those provided by the National 
Weather Service. Taken together, the data from the National 
Weather Service and the Oklahoma Mesonet complement and 
strengthen the predictive value of each network's information, 
making for a powerful partnership. It is an ideal model in 
these fiscally constrained times on how best to leverage 
investment from multiple entities to maximize the delivery of 
high quality information at a reasonable cost benefiting 
taxpayers and communities that depend upon more accurate 
weather forecasts.
    But does this mean that we do not need weather satellites? 
Certainly not. As important as the Oklahoma Mesonet is, it 
tells us little about the Pacific Ocean. It tells us little 
about the weather over Europe. Weather is global. The interests 
of the United States, including its businesses and its citizens 
are global, and hence the U.S. weather observing system must be 
global. The weather observing system must be a network of 
networks--satellites, aircraft, balloons, and ground-based 
Mesonets.
    The concept of a national Mesonet has been validated 
scientifically on a number of occasions, most notably in the 
path finding report issued in 2009 by the National Academy of 
Sciences, From the Ground Up: A Nationwide Network of Networks. 
I want to just single out two quotes. One, the report found, 
``An overarching national strategy is needed to integrate 
disparate systems from which far greater benefit could be 
derived and to define the additional observations required to 
achieve a true multi-purpose network at the national scope.'' 
And second, which is particularly relevant today, ``Several 
steps are required to evolve from the current circumstance of 
disparate networks to an integrated, coordinated network of 
networks. First, it is necessary to firmly establish a 
consensus among providers and users that a network of networks 
will yield benefits in proportion to or greater than the effort 
required to establish it. This consensus-building step is 
essentially political.''
    Last fall, NOAA launched a campaign called a Weather-Ready 
Nation. Let me state clearly and for the record, America will 
only become a weather-ready Nation if we increase the number of 
observations used to make meteorological forecasting more 
accurate and more precise and then work with the public and 
local decision-makers to act upon those improved forecasts.
    Thank you very much.
    [The prepared statement of Dr. Moore follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Harris. Thank you very much. Thank you all for 
your testimony, reminding Members that committee rules limit 
questioning to five minutes. The Chair will at this point open 
the round of questions. I recognize myself for the first five 
minutes.
    Mr. Webster, your testimony stated that NOAA should 
consider fixed price procurements for satellite instruments. 
Why would fixed price be better than the current systems and 
would ITT be willing to bid for fixed price instrument 
contracts?
    Mr. Webster. Thank you, Mr. Chairman. Fixed price contracts 
allow the contractors to set the requirements so we can build 
an instrument in the most cost-effective way. It is usually 
actually cheaper for the government because the risk and the 
cost is borne by the company, not by the government. So you 
don't have the dramatic increases in costs, or if you do, it is 
the company's standpoint, not from the government's standpoint.
    These are most effective when you have actually built, 
developed an instrument already. Most companies wouldn't want 
to do a development contract necessarily on a fixed price. But 
once you have built one of an instrument, you should be more 
able to reproduce them and manufacture them.
    So from ITT's perspective, we have bid several contracts 
for fixed price. We are taking copies of the U.S. instruments 
and then making them for the international community. For 
Japan, we are under contract currently right now with Japan. 
That was a fixed price job. Hopefully Korea, potentially 
Canada. So yes, we would certainly bid fixed price contracts.
    Chairman Harris. Thank you. Dr. Moore, in your written 
testimony, you state that, ``Because surface measurement 
technologies have only matured over the last decade, NOAA has 
built its observational forecasting largely on the basis of 
information from satellites and radars, and I think you 
summarized some of the most significant maturations and 
improvements in surface measurement technologies. But what 
findings might be uncovered with regard to the relative value 
of those recently improved technologies if NOAA were to 
increase its number of what are called the Observing Systems 
Simulation Experiments, or OSSEs? I mean, do you think that we 
would uncover the true relative value of those techniques?
    Dr. Moore. Yes, I think we would, and as I pointed out in 
my testimony, NOAA saw the wisdom of establishing ground base. 
That is why there are 1,200 ground-based stations through a 
program that cost about $5 billion. From the private sector, 
you could increase that coverage to 8,000 stations at a 
fraction of the cost.
    Chairman Harris. So you believe that they should do more of 
these simulation experiments----
    Dr. Moore. Yes. Excuse me. I think they should, and they 
should directly take into consideration what could be obtained 
from this very dense network in 26 states with 8,000 locations. 
Most of the ground-based systems that NOAA established were at 
commercial airports because of the joint program with the FAA. 
That doesn't necessarily get you the kind of coverage in the 
State of Oklahoma that you need.
    Chairman Harris. Sure. Thank you. Mr. Webster, again, you 
mentioned NOAA should increase the use of simulation tools such 
as OSSEs and the requirements for polar imagers should be a 
candidate for reevaluation. Why do you think, if you do, that 
NOAA should reexamine polar imagers when the VIIRS is now 
flying and working on the NPP satellite?
    Mr. Webster. Thank you, Mr. Chairman. I think in terms of 
the costs and the continued technical risk of the instrument 
that is flying today called VIIRS, unofficial estimates are 
that it costs upwards of $1 billion to build the first one, and 
estimates of the second one are several hundred million 
dollars.
    As I mentioned, ITT has built the legacy imager called 
AVHRR which is about the size of a roll-on suitcase. We have 
offered to modify the instrument to make it more capable, 
probably for costs under $50 million.
    So I think a study of what an enhanced AVHRR would provide 
versus what the VIIRS provides for weather forecasting. There 
are some capabilities on a climate perspective that VIIRS does 
that we know our instrument probably couldn't do. But from a 
weather forecasting mission, if we could do 85 or 90 percent of 
that capability for less than 1/10 of the cost, I believe it is 
at least worth a study.
    Chairman Harris. A study. Okay. Thank you. Dr. Crain, could 
you describe the potential of hyperspectral sounders to improve 
our ability to protect against severe weather outbreaks such as 
tornados and how does that potential compare to the severe 
weather forecasting contributions of the polar orbiting 
satellites?
    Dr. Crain. Thank you, Mr. Chairman. The key advantage of 
the geosystem is that it is stationary over the United States. 
So a geostationary hyperspectral system over the United States 
can continually monitor evolving severe weather, where a polar 
orbiting will get a snapshot, six hours, 12 hours later we get 
another snapshot, with no knowledge of the intervening time 
period.
    So in the case of advanced sounding, the JPSS has an 
advanced sounder. It has a hyperspectral sounder. But it makes 
one sample every 6 hours. In that same time period, a 
geostationary hyperspectral could take tens to thousands of 
soundings in the same region. So if we have emerging severe 
weather, we can see its evolution with much more finer 
resolution than we would see from the single or even multiple 
polar satellites.
    Chairman Harris. Well, thank you very much. I recognize the 
Ranking Member, Mr. Miller.
    Mr. Miller. Mr. Crain, your testimony is that GeoMetWatch, 
your company, is confident that you can avoid the problem of a 
possible weather data gap and that you can launch late 2015 or 
early 2016, which seems to be just in time to avoid the gap. 
Given the problems that we have had, why is it that you feel 
sure that your company can do so much better, launch earlier, 
and what assurance do we have that you will be able to meet a 
timeframe when other contractors have slipped their schedule?
    Dr. Crain. Thanks for the question.
    Mr. Miller. You have a launch vehicle line?
    Dr. Crain. The situation that we are in right now, we 
actually have a contractual agreement or an agreement to launch 
our first satellite over Asia at 110 East which is 
approximately over Japan in the 2015, 2016 time period. We 
potentially have some slack in the schedule that we could also 
accommodate a U.S. mission in roughly that same time period.
    The reason we feel we can do this at a low cost and risk is 
we are leveraging about $300 million of previous NASA and NOAA 
investment in a hyperspectral sounder for GEO that was 
developed through Langley and was built at Utah State 
University. That instrument is the basis of our commercial 
sounder, and we will be procuring that sounder under a fixed 
price contract as described by Eric. So that is why we have 
confidence that we can deliver it on time at a cost that is 
known to us.
    The other advantage of this approach is we are really only 
responsible for building that sensor. We are teaming with a 
large, commercial communications satellite provider and 
operator in Asia. We are teaming with one of the largest 
satellite bus manufacturers in the world, Tosolini North 
America.
    So we have a really good team that is going to bring their 
best commercial practices to fore to help us do this on a 
commercial basis.
    Mr. Miller. Mr. Webster, ITT is obviously the prime 
contractor for the satellite programs. Do you agree that a 
stationary orbit satellite can provide the data that we are 
looking for from the--orbiting satellites?
    Mr. Webster. Thank you, Mr. Miller. I think to clarify, the 
gap that you talk about is in the polar orbiting.
    Mr. Miller. Right.
    Mr. Webster. So I think what Dr. Crain has been talking 
about in terms of a geosounder would not get you that global 
coverage that the polar sounder would give, but the increase in 
capability would be most useful for U.S. severe storm 
forecasting on a now-casting basis, as Dr. Crain said.
    So I think the need of the potential gap in the polar orbit 
is still going to be there.
    Mr. Miller. It is undiminished. And have we had the same 
problems with the stationary orbiting satellites that we have 
had with the polar?
    Mr. Webster. Historically, yes, if you go back 15 or 20 
years. There was a huge shift in technology from an actually 
spinning satellite to one that was three-axis stabilized so it 
could actually stare at the United States. That was in the late 
'80s when ITT actually first started building the instruments.
    So we haven't been the prime contractor, we have been the 
prime instrument provider for the companies. The current GOES 
program is up and working well, and we are working on the next 
generation of instruments right now. And so far, we are still 
on schedule.
    Costs have been growing in the program, but it is also 
because of technical changes that the government has wanted 
along with some issues we have had on our end. But we are still 
within the overall scope that NOAA has budgeted for the 
program.
    Mr. Miller. Okay. And I am sure the testimony of the first 
panel about the way in which the data from various sources 
complements each other. Do you believe that the polar orbiting 
satellite's data can be replaced, can be done without, with 
additional stationary orbit satellites or further ground 
sensors?
    Mr. Webster. I think, you know, in terms of what Dr. Crain 
has been trying to propose with GeoMetWatch, if they had six 
geostationary sounders that circled the globe, you could get 
that type of coverage. One or two would not get you the global 
data that is critical to the global forecast models, and as 
Mary Kicza had mentioned, 90 percent of the data in the 
forecast models is satellite-based data, and most of that comes 
from polar sounders because it actually gets the global 
coverage.
    In terms of Mesonets or in-situ measurements, they are very 
critical for the finer resolution models and near-term 
forecasting. So again, the polar sounders, important for two to 
five day forecasts to tell you where severe weather might be in 
the southeast or in North Carolina, you might get a tornado in 
a couple of days. But as you get closer to that actual warning 
and forecast, that is when your radars and your Mesonets and 
your in-situ measurements come into a much higher fidelity.
    As Mr. Murphy mentioned, from the National Weather Service, 
the forecaster uses the model to set the parameters and then as 
he is forecasting uses all the in-situ data to actually provide 
the warnings. So the difference is between the general forecast 
versus the actual warning.
    Mr. Miller. My time is expired.
    Chairman Harris. Thank you very much. I now recognize the 
other gentleman from Maryland, Dr. Bartlett.
    Mr. Bartlett. Thank you, sir. Could we not place geospatial 
satellites in orbit such that they could stare at all the 
earth? We, I gather, have the orbiting satellites because they 
provide a more detailed look at weather, and so it provides us 
data in more detail. I gather we are looking at things from 
four different perspectives, one from way out there, 22,000 
miles, and from 500 miles, and then we have a lot of ground-
based stations. I remember several years ago I was working with 
our schools, many of which have weather stations, many of them 
collecting data as good as the weather collected at the 
airport. And since, as you mentioned, in Oklahoma you don't 
have airports in enough places to really provide wide coverage. 
I don't know, can't remember now, how we failed to get NOAA to 
look at these schools because there are many thousands of these 
across the country, and with a little coaching they could 
provide I would think much more detailed and broadly disbursed 
data input from the ground.
    But then we have that mid-level that Mr. Lev talked about 
in his testimony, and that is between the ground and those 500-
mile satellites, and we collect a little bit of data there with 
a few balloons that we send up from what, only 63 places and 
then only twice a day? So there are huge gaps in coverage, both 
in time and spatial coverage with that.
    Mr. Lev, I understand the use of your technology, TAMDAR, 
does not just produce relatively better weather forecasting but 
dramatically better weather forecasting. Is that correct?
    Mr. Lev. The slide we had up when I was giving my formal 
testimony, Mr. Bartlett, and thank you for the question, 
reflects the conclusions that NOAA itself derived from its own 
data denial study conducted over four years which was actually 
funded by the FAA, having considerable interest in high-
resolution, highly accurate weather forecasts. Those results 
from a classic data denial study, when we had many fewer 
aircraft flying than we have today, indicated that in the 
significant meteorological parameters, particularly moisture 
which is a key driver of short-term weather forecasts, that we 
improve the reliability and accuracy of forecasts by up to 50 
percent, 5-0 percent. Those are certainly, from our perspective 
and I think at the time NOAA's GSD division, considerably 
surprising and much greater than anyone thought might be the 
case. It turns out that as we add more aircraft and improve the 
type of modeling we are doing in terms of ingesting data, the 
reliability and accuracy has actually improved beyond 50 
percent in many respects.
    Mr. Bartlett. I gather that your technology simply 
hitchhikes on the planes that are there anyhow for other 
purposes?
    Mr. Lev. That is correct. One of the key issues in getting 
more data in the lower atmosphere if you will is you can't fly 
more balloons. They do get in the way of airplanes, and we have 
a lot more airplanes today than we had when the balloon program 
started almost 75 years ago. The only way to get good data, and 
that is what is critical is good, accurate data, is to 
hitchhike on aircraft, and that is what we do. We are in fact 
flying balloons, but we don't get in the way of anyone else, 
and we send that data in real time. It doesn't take 90 minutes 
to collect the data that is collected by the balloons, the 
radio sounds, as they rise into the atmosphere.
    Mr. Bartlett. How big are these devices and how much do 
they compromise the vehicle in which they are attached?
    Mr. Lev. In the commercial configuration, the entire system 
weighs well under 10 pounds, thus it doesn't compromise the 
aircraft in any shape, form or manner, which is why 10 or more 
airlines have been delighted to have us install on their 
commercial aircraft. In an unmanned aerial vehicle 
configuration, and we have been flying on drones to comment on 
something that was offered up earlier in other testimony, we 
are down to I think about a pound or less with special 
materials, carbon fiber and the like. It is actually nominal, a 
non-event with respect to size, shape or weight.
    Mr. Bartlett. What vehicle do you use for transmitting this 
data to where it is processed?
    Mr. Lev. The data comes off the sensor installed on the 
aircraft and is immediately sent in real time to the Iridium 
Satellite Network, a relatively well-known satellite network 
used both commercially and by the Department of Defense, by the 
way, sent in real time to our processing center, but could be 
sent anywhere on the planet, including to NOAA's processing 
centers if they so choose.
    Mr. Bartlett. Thank you, and I yield back, Mr. Chairman.
    Chairman Harris. Thank you very much, and I want to thank 
the witnesses for your valuable testimony and again for your 
patience as we started late, and the Members for their 
questions. The Members of the Committee may have additional 
questions for you, and we will ask you to respond to those in 
writing. The record will remain open for two weeks for 
additional comments from Members. The witnesses are excused. 
Thank you all for being here today. The hearing is now 
adjourned.
    [Whereupon, at 4:30 p.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Ms. Mary Kicza, Assistant Administrator, National 
        Environmental
Satellite, Data, and Information Service, National Oceanic and
Atmospheric Administration (NOAA)


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Alexander MacDonald, Deputy Assistant Administrator 
        for
Research Laboratories and Cooperative Institutes, Office of Oceanic and
Atmospheric Research, NOAA


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. John Murphy, Chief, Programs and Plans Division,
National Weather Service, NOAA


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Eric Webster, Vice President and Director,
Weather Systems, ITT Exelis


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. David Crain, Chief Executive Officer, GeoMetWatch


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Bruce Lev, Vice Chairman, AirDat LLC


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Berrien Moore, Dean, University of Oklahoma College of
Atmospheric and Geographic Sciences, and Director, National Weather 
        Center



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

    Submitted Materials by Mr. Bruce Lev, Vice Chairman, AirDat LLC


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
